HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Hawaii," (A-09-07-00081)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up
Audit of the Medicaid Drug Rebate Program in Hawaii," (A-09-07-00081)
April 14, 2008
Complete
Text of Report is available in PDF format (845 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Hawaiis
Medicaid drug rebate program, we found that the State had partly implemented the
recommendation from our prior audit that related to collection of rebate
interest but had not implemented the recommendations related to accuracy of
reporting to the Centers for Medicare and Medicaid Services (CMS) and amount of
the outstanding accounts receivable balance.  In addition, the State agency established controls over collecting rebates on single
source drugs administered by physicians, except that it did not establish a
crosswalk for single source drugs without National Drug Codes (NDC) on the claim
forms.  Manufacturers may
make their outpatient drugs eligible for Federal Medicaid funding by entering
into a rebate agreement with CMS and paying quarterly rebates to the States.
We recommended that the State (1) establish written policies and procedures to
ensure that interest is properly collected on rebate receivable items that were
outstanding before the transition to the current fiscal agent; (2) establish
written policies and procedures for preparing Form CMS-64.9R to ensure the
accuracy of amounts reported to CMS, including drug rebates for the supplemental
program; (3) determine the amount of the outstanding rebate accounts receivable
balance before the transition to the current fiscal agent and properly report
the balance on Form CMS­-64.9R; and (4) establish a crosswalk for collecting
rebates for single-source drugs administered by physicians for claim forms that
do not include NDCs.  The State did not dispute the findings and provided
information on the status of corrective actions taken.